<html>
<title> - IS THE CIA'S REFUSAL TO COOPERATE WITH CONGRESSIONAL INQUIRIES A THREAT TO EFFECTIVE OVERSIGHT OF THE OPERATIONS OF THE FEDERAL GOVERNMENT?</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





IS THE CIA'S REFUSAL TO COOPERATE WITH CONGRESSIONAL INQUIRIES A THREAT 
  TO EFFECTIVE OVERSIGHT OF THE OPERATIONS OF THE FEDERAL GOVERNMENT?

=======================================================================

                             JOINT HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT EFFICIENCY,
                        FINANCIAL MANAGEMENT AND
                      INTERGOVERNMENTAL RELATIONS

                                and the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   VETERANS AFFAIRS AND INTERNATIONAL
                               RELATIONS

                                 of the

                     COMMITTEE ON GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 18, 2001

                               __________

                           Serial No. 107-59

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


78-230              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
JOHN J. DUNCAN, Tennessee                (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

    Subcommittee on Government Efficiency, Financial Management and 
                      Intergovernmental Relations

                   STEPHEN HORN, California, Chairman
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
DAN MILLER, Florida                  MAJOR R. OWENS, New York
DOUG OSE, California                 PAUL E. KANJORSKI, Pennsylvania
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
                Darin Chidsey, Professional Staff Member
                           Scott Fagan, Clerk
           David Rapallo, Minority Professional Staff Member
 Subcommittee on National Security, Veterans Affairs and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
ADAM H. PUTNAM, Florida              DENNIS J. KUCINICH, Ohio
BENJAMIN A. GILMAN, New York         BERNARD SANDERS, Vermont
ILEANA ROS-LEHTINEN, Florida         THOMAS H. ALLEN, Maine
JOHN M. McHUGH, New York             TOM LANTOS, California
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JANICE D. SCHAKOWSKY, Illinois
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
DAVE WELDON, Florida                 ------ ------
C.L. ``BUTCH'' OTTER, Idaho          ------ ------
EDWARD L. SCHROCK, Virginia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              Nicholas Palarino, Professional Staff Member
                           Jason Chung, Clerk
           David McMillen, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 18, 2001....................................     1
Statement of:
    Eland, Ivan, director of Defense Policy Studies, Cato 
      Institute..................................................    45
    Hamilton, Lee H., director, Woodrow Wilson International 
      Center for Scholars; director, Center on Congress at 
      Indiana University, and former Member of Congress from the 
      State of Indiana...........................................    24
    Hinton, Henry L., Jr., Managing Director, Defense 
      Capabilities and Management, General Accounting Office.....    31
    Smith, Colonel Daniel M., USA (Ret.), chief of research, 
      Center for Defense Information.............................    61
    Woolsey, R. James, partner, Shea & Gardner, and former 
      Director, Central Intelligence Agency......................    27
Letters, statements, etc., submitted for the record by:
    Eland, Ivan, director of Defense Policy Studies, Cato 
      Institute, prepared statement of...........................    48
    Hinton, Henry L., Jr., Managing Director, Defense 
      Capabilities and Management, General Accounting Office, 
      prepared statement of......................................    33
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California:
        Letter dated July 7, 1994................................    11
        Letter dated July 17, 2001...............................    21
        Prepared statement of....................................     4
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     8
    Smith, Colonel Daniel M., USA (Ret.), chief of research, 
      Center for Defense Information, prepared statement of......    63

 
IS THE CIA'S REFUSAL TO COOPERATE WITH CONGRESSIONAL INQUIRIES A THREAT 
  TO EFFECTIVE OVERSIGHT OF THE OPERATIONS OF THE FEDERAL GOVERNMENT?

                              ----------                              


                        WEDNESDAY, JULY 18, 2001

        House of Representatives, Subcommittee on 
            Government Efficiency, Financial Management and 
            Intergovernmental Relations, joint with the 
            Subcommittee on National Security, Veterans 
            Affairs and International Relations, Committee 
            on Government Reform,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen Horn and 
Hon. Christopher Shays (chairmen of the subcommittees) 
presiding.
    Present for the Subcommittee on Government Efficiency, 
Financial Management and Intergovernmental Relations: 
Representatives Horn and Schakowsky.
    Present for the Subcommittee on National Security, Veterans 
Affairs and International Relations: Representatives Gilman, 
Shays, Otter, Kucinich, Tierney, and Clay.
    Staff present for the Subcommittee on Government 
Efficiency, Financial Management and Intergovernmental 
Relations: J. Russell George, staff director and chief counsel; 
Henry Wray, senior counsel; Bonnie Heald, director of 
communications; Darin Chidsey, professional staff member; Scott 
Fagan, assistant to the committee; Fred Ephraim, Davidson 
Hulfish, Fariha Khaliz, and Christopher Armato, interns.
    Staff present for the Subcommittee on National Security, 
Veterans Affairs and International Relations: R. Nicholas 
Palarino, senior policy analyst; and Jason Chung, clerk.
    Staff present for the minority: Michelle Ash and David 
Rapallo, counsels; David McMillen, professional staff member; 
and Jean Gosa and Earley Green, assistant clerks.
    Mr. Horn. This subcommittee hearing will come to order.
    James Madison once wrote, ``A popular government without 
popular information or the means of acquiring it is but a 
prologue to a farce or a tragedy or perhaps both.'' President 
Madison was correct in his belief that the Government's ability 
to gather and provide reliable information to its people is 
vital to the health and well-being of our Nation.
    Today's hearing should not be necessary. However, it is 
taking place because the Central Intelligence Agency has 
refused to comply with the oversight efforts of the Committee 
on Government Reform and its several subcommittees. In so 
doing, the agency is assaulting Congress' constitutional 
responsibility to oversee executive branch activities. The CIA 
apparently believes that it is above that basic principle in 
our Constitution. We don't agree.
    This hearing stems from a recent and contemptuous act by 
the Central Intelligence Agency during the Subcommittee on 
Government Efficiency, Financial Management and 
Intergovernmental Relations' examination of security plans and 
policies to protect the Government's classified computer 
systems. As part of that oversight effort, the subcommittee 
requested the General Accounting Office to conduct a survey of 
computer security policies at all executive branch departments 
and agencies that maintain classified systems.
    Every Federal agency except the Central Intelligence Agency 
responded to the survey. Those responding included the National 
Security Agency and the National Reconnaissance Office.
    Initially, the CIA expressed concern about providing 
sensitive information in a public forum. In an attempt to 
accommodate that concern, the subcommittee agreed to allow the 
agency to present that information in a classified executive 
session. The CIA agreed and provided the subcommittee with the 
name of an individual who would be able to testify at the 
classified session. Then, only days before the session was to 
take place, the CIA informed the subcommittee that it would not 
participate regardless of the closed nature of the meeting.
    In addition, members of the Central Intelligence Agency's 
Legislative Affairs Office called representatives of the 
National Security Agency and other witnesses who had agreed to 
participate, suggesting that they were under no obligation to 
testify before this subcommittee.
    The CIA points to a recent change in the House rules as the 
basis for not cooperating with congressional inquiries other 
than those received from the Permanent Select Committee on 
Intelligence. The rule adopted by the 107th Congress provides 
that the Permanent Select Committee on Intelligence shall 
review and study on a continuing basis the laws, programs and 
activities of the intelligence community. In addition, the rule 
provides that the Permanent Select Committee on Intelligence 
shall review and study, on an exclusive basis, the sources and 
methods of entities involved in intelligence gathering, 
including the CIA, its Director, and the national foreign 
intelligence program.
    The rule is clear in stating that congressional oversight 
of the CIA's, ``sources and methods,'' falls exclusively to the 
House Permanent Select Committee on Intelligence. However, the 
rule also provides that congressional oversight in the areas 
other than, ``sources and methods,'' is not to be limited to 
the Intelligence Committee.
    The Subcommittee on Government Efficiency, Financial 
Management and Intergovernmental Relations, which I chair, is 
charged with overseeing the efficiency and financial management 
of Federal agencies. It is also charged with the responsibility 
of overseeing governmentwide computer security efforts. We're 
not interested in pursuing issues that involve the CIA's 
sources or methods of operation. We do not want to jeopardize 
the security of this Nation or the safety of its intelligence 
agents and operatives.
    To the contrary, our examination of computer security 
issues is part of the subcommittee's attempt to ensure that 
this and other information is being adequately protected. 
Surely, the CIA should not be exempted from such a 
governmentwide effort.
    Today, we want to examine how the agency's lack of 
cooperation affects Congress' ability to oversee the activities 
of the executive branch departments and agencies. In addition, 
we want to examine whether the Central Intelligence Agency is 
thwarting the Government's separation of powers between 
legislative and executive branches by its attempted 
interpretation of a rule of the House of Representatives. 
Finally, we want to examine the Central Intelligence Agency's 
arrogant attempt here to undermine congressional oversight 
activities involving other agencies within the intelligence 
community.
    [The prepared statement of Hon. Stephen Horn follows:]

    [GRAPHIC] [TIFF OMITTED] T8230.001
    
    [GRAPHIC] [TIFF OMITTED] T8230.002
    
    Mr. Horn. We now will swear in the witnesses, and we have 
Mr. Shays and we have Mr. Gilman--Mr. Gilman for an opening 
statement.
    Mr. Gilman. Thank you, Chairman Horn. I appreciate the 
opportunity to appear today, and I want to thank the committee 
for conducting this important review. I'm disappointed for the 
need to hold these kinds of hearings. The CIA and other 
elements of our Government's intelligence community hold a very 
important place in our overall defense planning needs and 
security needs. By their very nature elements of the 
intelligence community occupy places of unusual trust on behalf 
of our entire Nation. They have a special responsibility both 
to properly safeguard the information that they handle and to 
provide sufficient and appropriate information for oversight to 
the Congress.
    While I acknowledge that this is a difficult balancing act, 
it is important that we protect the freedom and the openness of 
our Nation, symbolically and literally the leader of the Free 
World. That kind of responsibility requires accountability, 
largely achieved through the checks and balances of our three 
distinct and sometimes competing branches of government.
    We look forward to hearing the testimony of our witnesses 
who are here today. As needed, I want to work for an effective 
system of oversight that both fully supports the principle of 
free and open society and yet simultaneously fully protects the 
elements of information from disclosure that would damage our 
Nation's safety and security.
    And I want particularly to welcome the former chairman of 
our International Relations Committee, Congressman Lee 
Hamilton, now Director of the Woodrow Wilson Center, and James 
Woolsey, the former Director of the CIA, as well as our other 
distinguished witnesses who are here today.
    Thank you, Mr. Chairman.
    Mr. Horn. Well, we thank you.
    And now I'll turn to our cochairman for this hearing, Mr. 
Shays, the gentleman from Connecticut, who is the chairman of 
the Subcommittee on National Security, Veterans Affairs and 
International Relations of the Government Reform Committee.
    Mr. Shays. Thank you, Chairman Horn.
    Like you, the members of the National Security, Veterans 
Affairs and International Relations Subcommittee would much 
rather conduct a hearing about constructive oversight findings 
than about obstructions to our oversight process. But when 
faced with persistent, institutionalized agency resistance to 
legitimate inquiries, we're compelled to reassert our 
authority, under the Rules of the House, to review the 
operation of government activities at all levels.
    In 1994, the Central Intelligence Agency [CIA], adopted a 
self-described ``hard-line'' approach to congressional 
oversight inquiries, particularly General Accounting Office 
[GAO], reviews not initiated by the Select Intelligence 
Committees. The policy attempted to draw a bright-line between 
sharing intelligence products with congressional committees and 
submitting to any oversight which the agency believes will 
compromise the sources and methods of intelligence gathering.
    Based on that dated, distorted concept of oversight, CIA 
refuses to discuss its approaches to governmentwide management 
reforms and fiscal accountability practices. Other intelligence 
agencies share information freely. Blinded by its own bright-
line, the CIA often stands alone in refusing routine 
congressional requests for data, even going so far as 
attempting to persuade other agencies to resist as well.
    The CIA position that congressional oversight jurisdiction 
is limited to the Select Intelligence Committees is not 
supported by the law, is not supported by House Rules and is 
not supported by sound public policy. National security will be 
enhanced, not undermined, by the full exercise of congressional 
oversight authority.
    We have no interest in examining the sources and methods of 
intelligence gathering and analysis. But we do have a keen 
interest in how effectively and efficiently the CIA and other 
intelligence agencies manage human capital, manage fiscal 
resources and meet statutory program objectives. The bottom 
line: The source of all CIA funding is the American taxpayer 
and the methods of management efficiency and accountability 
must be within the purview of this and other committees of 
Congress.
    Symptomatic of the CIA's misguided perception of its 
responsibilities to Congress, the agency would not even 
cooperate this morning by providing a witness to discuss why 
they won't cooperate. I find that outrageous.
    But we do welcome a panel of most distinguished witnesses 
to discuss the indispensability of broad-based and far-reaching 
oversight of the intelligence community. Every one of our 
witnesses is very qualified to speak on this subject, and I, as 
the chairman of the National Security, Veterans Affairs and 
International Relations Subcommittee, am grateful to each and 
every one of you for being here and regret deeply the lack of 
cooperation of the CIA in even responding to basic questions 
about cooperation.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T8230.003
    
    [GRAPHIC] [TIFF OMITTED] T8230.004
    
    Mr. Horn. I thank the gentleman. And I put in, following 
his remarks, two documents from the Central Intelligence 
Agency. The first is dated July 7, 1994, a memorandum for the 
Director of Central Intelligence. It's from Stanley M. 
Moskowitz, the Director of Congressional Affairs, and the 
subject is the Director of Central Intelligence Affirmation of 
Policy for Dealing With the General Accounting Office.
    Now, as we know, they are the arm of Congress for 
investigations, programmatic auditing; and they act for 
Congress, they act for these committees and other 
subcommittees.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8230.005
    
    [GRAPHIC] [TIFF OMITTED] T8230.006
    
    [GRAPHIC] [TIFF OMITTED] T8230.007
    
    [GRAPHIC] [TIFF OMITTED] T8230.008
    
    [GRAPHIC] [TIFF OMITTED] T8230.009
    
    [GRAPHIC] [TIFF OMITTED] T8230.010
    
    [GRAPHIC] [TIFF OMITTED] T8230.011
    
    [GRAPHIC] [TIFF OMITTED] T8230.012
    
    [GRAPHIC] [TIFF OMITTED] T8230.013
    
    Mr. Horn. The next document is from George A. Tenet, 
Director of Central Intelligence, to Stephen Horn, chairman, 
Subcommittee on Government Efficiency, Financial Management and 
Intergovernmental Relations, and that's dated July 17, 2001.
    [The letter referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8230.014
    
    [GRAPHIC] [TIFF OMITTED] T8230.015
    
    [GRAPHIC] [TIFF OMITTED] T8230.016
    
    Mr. Horn. We will now swear in the witnesses, and I share 
Mr. Shays' and Mr. Gilman's feeling that we have an excellent 
panel here today, and we're thankful that you know a lot of the 
history of the CIA and both of you have shown great expertise 
in serving our Nation and also to working with Congress. So if 
you will stand and raise your right hands, and the staff behind 
for GAO.
    [Witnesses sworn.]
    Mr. Horn. The clerk will note that all have affirmed, or 
said yes; and now we will start with--first one, a friend 
certainly of everybody in the Congress and that's the Honorable 
Lee Hamilton, who was for very many years chairman of the 
International Relations Committee, is now Director of the 
Woodrow Wilson Center, and was former chairman, House Permanent 
Select Committee on Intelligence.
    Mr. Hamilton.

    STATEMENT OF LEE H. HAMILTON, DIRECTOR, WOODROW WILSON 
INTERNATIONAL CENTER FOR SCHOLARS; DIRECTOR, CENTER ON CONGRESS 
 AT INDIANA UNIVERSITY, AND FORMER MEMBER OF CONGRESS FROM THE 
                        STATE OF INDIANA

    Mr. Hamilton. Good morning, Mr. Chairman, Mr. Shays, Mr. 
Gilman. It's a pleasure to be with you.
    I always thought it was a little easier to sit up there and 
ask the questions than it is to sit down here and answer them, 
and I'm quite confident of that this morning, but I'm very 
pleased to be with you. Let me make a few opening comments 
about the way I approach the question that the chairman has 
raised, and Mr. Gilman and Mr. Shays.
    First of all, I think we all agree that good intelligence 
is essential for the security of the country. U.S. policy has 
to be based on the most accurate information available, and on 
correct prediction insofar as that is possible. Good 
intelligence does not guarantee good policy, but bad or poor 
intelligence almost certainly guarantees bad policy.
    A Nation without intelligence is like a person without eyes 
and ears. Good intelligence is essential.
    Second, the tasks that we assign to the intelligence 
community today are simply overwhelming--enormous, varied, 
expanding. The old proverb says that only a fool would make a 
prediction, especially about the future. But the problem, of 
course, is that we ask the CIA to make not just one, but 
hundreds of predictions, every week; and we want them to be as 
accurate as possible. And the toughest thing in the world to 
predict is intentions, and we ask the CIA to predict that all 
of the time.
    I believe that our intelligence capabilities are very 
good--always room for improvement. I believe that the people 
who work at our intelligence agencies are highly talented and 
dedicated people. Jim Woolsey was an outstanding Director of 
the CIA, but he represents many hundreds, thousands of others 
who do marvelous work for the country.
    I support the greater openness on the part of the 
intelligence community. I think the intelligence community 
should be forthcoming in making available information on its 
work and the role that it plays in shaping U.S. policy.
    Let me just say a word about the importance of oversight by 
the Congress of the intelligence community. My view, I gather 
your view, is that the intelligence community needs very 
strong, very vigorous, independent oversight; and the Congress 
is the only body that can really give independent oversight of 
the executive branch under our current laws, structures and 
practices.
    The intelligence community is enormously large. It's very 
complicated and it is hugely expensive. In this town, 
information is power and the intelligence community has 
tremendous power to influence policy.
    Intelligence is an area of great temptation for a 
President. Presidents can be tempted, I should say, to 
manipulate intelligence to influence the policy debate. I think 
oftentimes the executive sees intelligence as a tool to make 
policy look good, rather than a tool for making good policy. 
Presidents often resort to the intelligence information they 
have, to the CIA, for covert actions when they're frustrated by 
obstacles to their policies. So Congress, in a sense, stands 
between the President and the misuse of intelligence by the 
intelligence community and by the executive branch.
    The congressional role in oversight--I'll get down to that 
more specifically--is limited, but extremely important for some 
of the reasons I have suggested. Unlike other Federal issues, 
Federal agencies, the intelligence community does not receive 
the kind of close scrutiny independent of the President that 
almost every other policy does.
    There's very little media coverage of the intelligence 
community. There are very few academic studies of the 
intelligence community. There are no, or at least not a large 
number of lobbying groups for the intelligence community. Most 
of the meetings they have occur in secret, without public input 
and isolated from most Members of Congress.
    There is an Inspector General of the CIA. There is a 
Foreign Intelligence Advisory Board. Those are appointed by the 
President, not independent of the President.
    And intelligence is a very arcane business.
    So I think oversight is very important. If the Congress 
fails to identify the problems in intelligence, they may go 
unspotted. And while they have been a very good agency in many 
respects, the CIA over a period of years has also been a very 
troubled agency.
    At one point, not long ago I think, they had five Directors 
in 7 years. You can't possibly manage that shop over there with 
five Directors in 7 years. It's just too big and too 
complicated.
    The intelligence community has not, I can assure you, come 
easily to the idea of congressional oversight, but I believe 
they have come to that; and that's an important fact.
    Now, as I understand the law today--and it's quite 
extraordinary really that you have this massive intelligence 
community and yet you do not have any fundamental charter or 
law. We've tried to draft a charter for the intelligence 
community several times and never succeeded, but there are a 
number of pieces of legislation. There are a lot of rules and 
practices that have been put into place over the period of the 
last few decades that set the framework, if you would, for 
oversight of the intelligence community.
    The law provides that the executive keep the House and 
Senate intelligence community committees fully and currently 
informed of intelligence activities, and that judgment, as to 
whether it's fully informed or currently informed, is a 
judgment the Congress has to make, not the intelligence 
community. The law provides that illegal and failed activity be 
reported in a timely way and, of course, it has a special 
provision with regard to covert actions.
    It's an extremely difficult problem of oversight because 
the intelligence committees are given legislative, 
investigative, and authorization authority over the 
intelligence community. They have exclusive jurisdiction of the 
CIA, but they share jurisdiction with other agencies, for 
example, the Department of Defense and NSA, DIA, State, Energy. 
So it's a very complex pattern that you have over oversight of 
the intelligence community.
    There are a lot of benefits from oversight. I don't think I 
need to go into that, because I know very well the chairman's 
position on that. The Congress conducts that oversight, of 
course, through the budget process. I think the great task is 
to strike a balance between the need to ensure accountability 
and the intelligence community's need to gather and protect 
information.
    It's the balance between oversight and secrecy. It is not 
an easy task. You will never get it right completely, but you 
have to keep working at it. And sometimes the Congress is a 
partner of the intelligence community, sometimes it's a critic, 
sometimes it's an advocate for the intelligence community, 
sometimes it's a watchdog; and those roles are very hard to 
keep in balance.
    My view--and I'll conclude with this, Mr. Chairman--is that 
the Congress has to get information it needs from the 
intelligence community. Congress should be the judge of that. 
We have in place today a structure that has been developed over 
a period of decades really, where the information from the CIA 
is provided to the intelligence committees. Then the 
intelligence committees must decide how that information is 
made available to other Members of the Congress.
    This system doesn't work perfectly, but my judgment is, it 
works reasonably well. And I do feel it is possible there may 
be a better way to do it, but we ought not to go to another way 
in an ad hoc manner by this subcommittee or that subcommittee 
or this committee or that committee demanding information from 
the CIA.
    If you really want to change the way you do oversight of 
the intelligence community, then it has to be approached, it 
seems to me, in a very coherent, comprehensive way to change 
the structure that was put in place over the past few decades--
a structure of law, a structure of precedent, a structure of 
practice.
    And the question of sharing intelligence information 
outside of the intelligence committees to other members is 
always a very sensitive question in this institution and one 
that has created tensions as long as I can recall.
    So the bottom line is that I think the system that we have 
certainly calls out for improvement. It's working reasonably 
well, but be careful not to throw it out unless you have 
something to put in its place that has been carefully, 
comprehensively, coherently thought about.
    Mr. Horn. Thank you very much. We appreciate the wisdom you 
had during the Congress and after Congress.
    We now have the Honorable James Woolsey, who was a former 
Director of the CIA from 1993 to 1996 and was, again, highly 
respected here in both parties for his openness and his 
willingness to relate to people. Thank you very much.

  STATEMENT OF R. JAMES WOOLSEY, PARTNER, SHEA & GARDNER, AND 
          FORMER DIRECTOR, CENTRAL INTELLIGENCE AGENCY

    Mr. Woolsey. Thank you, Mr. Chairman, and thank you for 
inviting me today.
    I was Director of Central Intelligence for 2 years early in 
the Clinton administration. I also, however, in an earlier 
incarnation, was General Counsel of the Senate Armed Services 
Committee for 3 years. So I have seen this issue from both 
Capitol Hill and the executive branch; and the views, 
obviously, that I express today are only those of a private 
citizen and lawyer who got out the rule book and looked at it 
and tried to decide what he thought. And I thank you for 
inviting me.
    This current issue apparently arose from the question of 
how this committee could investigate and assess and conduct 
oversight in connection with the cyberthreat to our government 
computers; and I would say, first of all, that I can think of 
no overall issue that is more substantively important to the 
Government right now than this. It is something that is of 
absolutely vital importance.
    It's an area that I've been working on for some time as a 
private lawyer. I think such issues as whether fire walls, for 
example, can effectively protect computers is of extraordinary 
importance. I don't believe they're very effective, and I think 
that this committee's assessment of the best ways for 
government computers and government networks to be protected 
would be extremely important.
    This procedural question of exactly how and under what 
circumstances what information should be provided to committees 
of the Congress other than the House and Senate Select 
Committees--the Permanent Select Committee and the Select 
Committee and the two Appropriations Committees is also an 
important and rather difficult one.
    First of all, let me say, when I was Director of Central 
Intelligence, I certainly did not neglect the Congress; and I 
don't know any Director, really, who can or should. Congress 
was in session 185 days in calendar 1993, my first year as 
Director, and I had 195 appointments on the Hill that year, 10 
more than the days Congress was in session, so on average, I 
was up here more than once a day. At one point, for example, I 
sat beside one of my analysts for 29 hours, before a number of 
different committees, because his judgment about Haiti had been 
called into question; and we answered questions from a large 
number of individual Congressmen, mainly Senators, on precisely 
what type of judgments we had made about President Aristide and 
why.
    Any Director of Central Intelligence should spend a good 
deal of time on the Hill, and he owes not just his two 
oversight committees and two appropriations committees, but the 
Congress as a whole, I think, what information he can provide 
and what help he can provide from the intelligence community.
    Now, it's my understanding that a few weeks ago Larry 
Gershwin, an extraordinarily able national intelligence 
officer, testified on cyberthreat trends and U.S. network 
security before, I believe it was, the Joint Economic 
Committee. Now, this is, of course, the principal way in which 
the CIA provides information to the Congress; it provides 
intelligence product. And it is an issue, it seems to me, what 
the words of the House rules mean with respect to what other 
information is provided to congressional committees.
    Rule 10, and in it clause 11, does say, as the chairman 
noted at the beginning, that nothing in this clause, clause 11, 
restricts other committees such as this one from reviewing 
intelligence activities or intelligence products. But I think 
one has to note that this right is circumscribed, at least as I 
read the rules, by a provision in clause 3, not clause 11, 
which limits exclusively to the House Permanent Select 
Committee the right to oversee sources and methods.
    The way I read those two clauses is that the exclusive 
right to oversee sources and methods essentially trumps the 
right of other committees to review intelligence activities or 
products. So, in my mind, this whole issue comes down to the 
question of what is a ``method of the CIA'' in clause 3, it is 
a method of the entity, the CIA, that is at issue.
    Now, some of my colleagues this morning have read this 
limitation, this word ``method'' in a quite limited way. Mr. 
Eland, in his prepared testimony, on pages 8 and 9, says that 
the CIA's method of protecting its own computers should be 
regarded no differently by the Congress than its assessment of 
the foreign threat. And Colonel Smith limits methods to 
collection methods, that is, whether one is taking photographs 
or reading lips, for example.
    I don't read ``methods of the CIA'' that narrowly. I must 
say, it seems to me that the method by which the CIA protects 
its computers from intrusion is a method of the CIA.
    Now, I fully agree it is up to the House to decide how to 
interpret its own rules, but I understand the House Permanent 
Select Committee on Intelligence has a different view than this 
committee with respect to the breadth, or lack thereof, of the 
meaning of the word ``method.''
    Now, let me say why I believe briefing on the foreign 
threat, as Mr. Gershwin did before the Joint Economic 
Committee, rather than reviewing the CIA's method of 
maintaining its own computer security, is an understandable way 
for the Congress to operate. If one takes the members of the 
House Permanent Select Committee and the Senate Select 
Committee and of the two Appropriations Subcommittees for 
Defense, which cover intelligence, one has 72 Members of the 
Congress and 80 staff members, that's 152 people on the Hill 
who today are charged with intelligence oversight. Those 72 
Members constitute 13 percent of the entire membership of the 
Congress.
    If one adds this committee's and its parallel committee in 
the other body, Senate Governmental Affairs members and staff, 
one adds 58 Members and 193 staff members to the total that 
would be engaged in overseeing the CIA. That's now a total of 
403 people on Capitol Hill, and would constitute 24 percent of 
the Members of the House and Senate.
    There are at least two other committees that have an 
understandable interest in overseeing some aspect of what the 
CIA does, House International Relations and Senate Foreign 
Relations and House and Senate Armed Services. If one adds the 
149 members of those committees and the 219 staff members, one 
gets an added 368 individuals who would be involved in 
overseeing the CIA.
    That would be a total of some 760-770 individuals on 
Capitol Hill, and if you deduct the Members who are on more 
than one of those committees, the way my numbers came out is 
that you would end up with 49.5 percent of the Members of 
Congress, one-half of the Members of Congress involved in 
overseeing the CIA if the Government Reform, Government 
Affairs, International Relations, Armed Services, as well as 
the Intelligence Committees and Appropriations Committees were 
involved.
    Now, there may be some way, there may be some structure 
whereby a change in the process could be worked out and 
whereby, as former Chairman Hamilton said, a reform, a 
systematic reform of the whole process should be undertaken. I 
don't write off that possibility, but I must say that if one 
goes at this piecemeal and looks to just each individual 
committee or subcommittee in Government Reform, Government 
Affairs, International Relations, Foreign Relations, Armed 
Services that may have some understandable interest, and if one 
interprets the word ``method'' quite narrowly, so that pretty 
much anything that the CIA does other than a collection source 
or a collection method is subject to oversight from the other 
committees of the Congress, you are on a track to having half 
of the Members of the Congress and some 760 people on Capitol 
Hill engaged in CIA oversight.
    I do not think that would be wise.
    So I would identify myself with Chairman Hamilton's closing 
words, that I believe the current system works reasonably well 
and that it should only be reformed if it is reformed in some 
systematic and thorough and overall way, rather than piecemeal.
    Thank you, Mr. Chairman and Members.
    Mr. Shays. Thank you Mr. Woolsey.
    Mr. Hinton, I think what we'll do is wait for Mr. Horn to 
come back. He left early so we could continue the flow, but I 
think what we'll do is, we'll go and vote.
    So we'll recess for a second, but as soon as he gets back 
he'll start with you. Thank you. So we stand in recess.
    [Recess.]
    Mr. Horn. The recess is over. If you don't mind Mr. 
Woolsey, I heard you put a few details in the record here and I 
may be, I'd just like it for my benefit to get a repeat on 
that.
    Mr. Woolsey. Surely. Do you mean now?
    Mr. Horn. Sure.
    Mr. Woolsey. I said several things but let me focus on two. 
One was that although this is a difficult and complicated 
issue, and I fully understand the substantive reasons behind 
the committee's interest in this very important area, I think 
we come down to a reading of the House rules.
    And as I read them, and as I said, this is nothing more 
than a private citizen's reading. The authority for other 
committees to review intelligence activities and products are 
the words in clause 11 of rule 10; and nothing in this clause, 
i.e., clause 11, as the rule states, restricts nonintelligence 
committees from reviewing intelligence activities and products.
    But the exclusive basis for the House Permanent Select 
Committee's jurisdiction over reviewing sources and methods of 
the CIA occurs in clause 3, not clause 11, and the way I read 
that interaction is that their exclusive basis with respect to 
sources and methods essentially trumps the provisions in clause 
11.
    So the question comes, what is a ``method?'' If an 
intelligence method is relatively limited, if it is as limited 
as Colonel Smith says in his testimony that he limits it 
essentially to collection methods, that is, whether you are 
learning something through photographs or through lip reading; 
and Mr. Eland says on pages 8 and 9 of his testimony that there 
should be no difference between the CIA's way or method of 
protecting its own computers, then the threat--that is, both of 
those--should be fully reviewable by other committees.
    I must say, I read the word ``method'' more broadly. I 
believe that it is entirely plausible to contend that a 
``method of the CIA'' includes its method of protecting its 
data; and under that reading, the way I would read it is that 
the House Permanent Select Committee's jurisdiction is 
exclusive with respect to the agency's methods.
    Now, I agreed with Chairman Hamilton with respect to any 
reform needing to be--of the process or the oversight process 
needing to be an overall, systematic reform rather than 
something that is done piecemeal; and my illustration on that 
was the following: If one takes the House Permanent Select 
Committee and the House Appropriations Subcommittee that deals 
with intelligence together with the sister committees in the 
other body, you have 72 Members and 80 staff members who are 
involved in intelligence oversight, now 152 people, and those 
72 Members are 13 percent of the membership of the Congress.
    If one adds the members and the staff of the House 
Government Reform Committee and Senate Governmental Affairs, 
you get up to 403 people and 24 percent of the Members of the 
Congress; and if one adds in the members and staff of House 
International Relations and Senate Foreign Relations and House 
and Senate Armed Services, which I think have a plausible claim 
to being interested in perhaps some oversight responsibility 
for the intelligence community, under a broad reading you get 
up to right at 50 percent of the Members of the Congress and 
about 760 individuals, not counting the GAO if it gets into the 
business, who are involved in overseeing the CIA.
    And I think those numbers suggest that one should move 
toward an oversight role for other committees only as part of 
some overall evaluation rather than a piecemeal step, because, 
I for one, don't see a way to draw a line between this 
subcommittee's responsibilities and other committees of 
Government Reform or Senate Governmental Affairs, or for that 
matter, many of the interests of House International Relations, 
Senate Foreign Relations and the Armed Services Committees.
    So, anyway, those were the main points, I think, Mr. 
Chairman.
    Mr. Horn. Well, thank you very much.
    We'll now proceed with the third witness, Mr. Hinton. Henry 
Hinton is the Managing Director of Defense Capabilities and 
Management of the General Accounting Office. The General 
Accounting Office works for the Congress of the United States 
and is a creature of the Congress, and we give a lot of 
assignments to them on many aspects in the executive branch.
    And we welcome you here today.

 STATEMENT OF HENRY L. HINTON, JR., MANAGING DIRECTOR, DEFENSE 
     CAPABILITIES AND MANAGEMENT, GENERAL ACCOUNTING OFFICE

    Mr. Hinton. Thank you, Mr. Chairman. I'm pleased to be here 
to discuss the subject of GAO access to information at the CIA. 
I will focus my comments this morning on our authority to 
review CIA programs and the status of our access to CIA 
information.
    On the subject of authority, as with all Federal programs, 
Congress has given us broad authority to evaluate CIA programs. 
In reality, however, we face both legal and practical 
limitations on our ability to review these programs. For 
example, we have no access to certain CIA unvouchered accounts, 
that is, expenditures of a confidential or emergency nature 
that are accounted for solely on the certification of the 
Director.
    We cannot compel our access to foreign intel and 
counterintelligence information. In addition, as a practical 
matter, we are limited by the CIA's level of cooperation, which 
has varied throughout the years. We have not actively audited 
the CIA since the early 1960's, when we discontinued such work 
because the CIA was not providing us with sufficient access to 
information to perform our mission. The issue has arisen since 
then, from time to time, as our work has required some level of 
access to CIA programs and information.
    Most recently, in 1994, the CIA Director sought to further 
limit our audit work of intelligence programs, including those 
at DOD. In doing so, the CIA has maintained that the Congress 
intended the Select Intelligence Committees to be the exclusive 
means of oversight of the CIA. This action by the CIA Director 
has effectively precluded oversight by us. Given a lack of 
requests from the Congress for us to do work in this area and 
with our limited resources, we have made a conscious decision 
not to pursue this issue.
    On the subject of the status of our current access, today, 
our dealings with the CIA are mostly limited to requesting 
information that relates to governmentwide reviews or analyses 
of threats to the U.S. national security on which the CIA might 
have some information. The CIA either provides us with the 
requested information, provides the information with some 
restrictions or does not provide the information at all.
    In general, we are most successful at getting access to CIA 
information when we request threat assessments, and the CIA 
does not perceive our audits or evaluations as oversight of its 
activities. For example, in our review of chemical and 
biological terrorist threats that we did for Chairman Shays, we 
requested, and the CIA provided us, access into formation on 
their threat assessments and access to the analysts that 
prepared them.
    On the other hand, for our review of classified computer 
systems in the Federal Government, we requested basic 
information on the number and nature of such systems. In this 
case, and as you referred to in your opening statement, Mr. 
Chairman, the CIA did not provide us the requested information, 
claiming that they would not be able to participate in the 
review because the type of information is under the purview of 
the congressional entities charged with overseeing the 
intelligence community.
    My written statement has other examples in it.
    In conclusion, Mr. Chairman, our access to CIA information 
and programs has been limited by both legal and practical 
factors. Today, our access is generally limited to obtaining 
information on threat assessments when the CIA does not 
perceive our audits as oversight of its activities. We foresee 
no major change in our current access without substantial 
support from Congress.
    Congressional impetus for change would have to include the 
support of the Intelligence Committees, who have generally not 
requested GAO reviews or evaluations of CIA activities. With 
such support, we could evaluate some of the basic management 
functions at CIA that we now evaluate throughout the 
Government.
    That concludes my statement Mr. Chairman.
    Mr. Horn. Thank you very much.
    [The prepared statement of Mr. Hinton follows:]

    [GRAPHIC] [TIFF OMITTED] T8230.017
    
    [GRAPHIC] [TIFF OMITTED] T8230.018
    
    [GRAPHIC] [TIFF OMITTED] T8230.019
    
    [GRAPHIC] [TIFF OMITTED] T8230.020
    
    [GRAPHIC] [TIFF OMITTED] T8230.021
    
    [GRAPHIC] [TIFF OMITTED] T8230.022
    
    [GRAPHIC] [TIFF OMITTED] T8230.023
    
    [GRAPHIC] [TIFF OMITTED] T8230.024
    
    [GRAPHIC] [TIFF OMITTED] T8230.025
    
    [GRAPHIC] [TIFF OMITTED] T8230.026
    
    [GRAPHIC] [TIFF OMITTED] T8230.027
    
    [GRAPHIC] [TIFF OMITTED] T8230.028
    
    Mr. Horn. Our next witness is Ivan Eland, director of 
defense policy studies at the Cato Institute.

 STATEMENT OF IVAN ELAND, DIRECTOR OF DEFENSE POLICY STUDIES, 
                         CATO INSTITUTE

    Mr. Eland. Thank you, Mr. Chairman and other members of the 
committee. It's a pleasure to appear before the committee to 
give my remarks on this vital topic.
    As important as safeguarding sensitive intelligence 
information is to the CIA, the intelligence community and the 
executive branch, more paramount concerns exist in a 
constitutional republic. Reacting to European monarchs who ran 
foreign and military policy, often disastrously and with few 
constraints imposed by their subjects, the founders of the 
American Nation enshrined in the U.S. Constitution a vital role 
for Congress, the arm of the people in foreign and national 
security policy.
    James Madison noted that experience showed that checks and 
balances within the Government were needed to guard against the 
Founders' greatest fear, the risky accumulation of power in one 
branch of government. In short, Madison wrote, ``Ambition must 
be made to counteract ambition.''
    The checks and balances written into the Constitution, 
which go to the heart of a constitutional republican form of 
government, ensure that no branch of government can dominate 
U.S. foreign and defense policy. Thus, Congress has vital 
oversight responsibilities for executive branch agencies 
involved in foreign affairs and national security, including 
CIA and the intelligence community.
    Even in a constitutional republic, however, some secrecy in 
foreign affairs and defense is needed, obviously; but when 
secrecy and accountability clash, which the presumption should 
be with accountability, accountability should be especially 
preferred in the lower external threat environment of a 
postcold war world.
    Unlike most other government entities, the intelligence 
agencies get only limited scrutiny from the media, the public, 
conflicting interest groups and the courts. Also, U.S. 
Government secrets are not the exclusive property of the 
executive branch. Congressional committees are entitled to, and 
also have a duty to examine them to ensure that the secretive 
intelligence community is acting in the interests of the people 
it is supposed to be defending. Of course, we have well-known 
instances where the intelligence agency did not act in this 
fashion. For those reasons, congressional oversight by more 
than just the small and too easily co-opted, in my opinion, 
intelligence committees is especially vital.
    However, in most cases accountability does not run afoul of 
secrecy. In fact, in this case, the Government Reform Committee 
is trying to ensure that the CIA's computer systems adequately 
secure the sensitive information. In fact, in recent decades, 
the trend has been to expand the circle of those responsible 
for overseeing intelligence activities. The expansion of 
oversight is even more appropriate now that the worldwide 
Communist menace has collapsed.
    To help guide the House committees in performing oversight, 
the Rules of the House delineate special oversight functions 
for various committees. In that part of the Rules, clause 
(3)(1), the Permanent Select Committee on Intelligence, ``shall 
review and study on a continuing basis laws, programs and 
activities of the intelligence community and shall review and 
study on an exclusive basis the sources and methods,'' of 
agencies of the intelligence community, including CIA.
    The phrase ``on an exclusive basis'' is very telling 
because the exclusive purview of the House Intelligence 
Committees is restricted to examining sources and methods. By 
implication, the other committees can study laws, programs and 
activities of the intelligence community, for example, CIA 
cybersecurity. If ``sources and methods'' is broadly read as 
Mr. Woolsey states, then why is the ``on an exclusive basis'' 
clause needed at all? The other committees can't review 
anything under this interpretation anyway, because the CIA 
method is all-encompassing.
    My interpretation fits well with another passage in the 
House Rules that specifically governs the Permanent Select 
Committee on Intelligence, clause 11(b)3. It says, ``Nothing in 
this clause shall be construed as prohibiting or otherwise 
restricting authority of any other committee to study and 
review an intelligence or intelligence-related activity to the 
extent that such activity directly affects a matter otherwise 
within the jurisdiction of that committee.''
    Once again, ``sources and methods'' is normally taken to 
mean ``collection.'' If ``method'' is read broadly, as Mr. 
Woolsey states, why even put this clause in at all? Everything 
is a method, and so other committees besides the Intelligence 
Committees cannot review anything.
    Those same House Rules give the Government Reform Committee 
broad oversight over the operation of the executive branch 
agencies. Clause 3(e) states, ``The Committee on Government 
Reform shall review and study on a continuing basis the 
operation of government activities at all levels with a view to 
determining their economy and efficiency.'' That's a pretty 
broad purview.
    So it's been very clear from the time of the creation of 
the Intelligence Committees in the late 1970's that they did 
not have exclusive jurisdiction over intelligence and 
intelligence-related activities or access to intelligence 
products; the mere name, Select Committee, indicates that. The 
House Rules seem very clear on that point.
    But if any dispute over internal House jurisdictions 
occurs, it should be between the intelligence community and 
another committee, not between the CIA and the other committee. 
The CIA should allow congressional committees to interpret 
rules made by their own Chamber, and in fact, maybe outside 
experts ought to let the committees work this out as well.
    In short, the CIA appears to have no basis for its refusal 
to testify before the Government Reform Committee. The 
Government Reform Committee's effort to investigate CIA's 
cybersecurity seems to be well within its constitutional 
responsibilities and its jurisdiction under the House Rules to 
review government economy and efficiency.
    Furthermore, as long as the committee refrains from 
directly examining the CIA ``sources and methods of 
intelligence''--and I read this to be ``collection,'' which is 
unlikely in an investigation of the CIA's cybersecurity, the 
committee seems to have a compelling case under the Rules for 
examining the agency's intelligence activities and products 
during its investigation.
    That concludes my verbal statement. I'll be happy to answer 
questions at the appropriate time.
    Mr. Horn. Thank you very much.
    [The prepared statement of Mr. Eland follows:]

    [GRAPHIC] [TIFF OMITTED] T8230.029
    
    [GRAPHIC] [TIFF OMITTED] T8230.030
    
    [GRAPHIC] [TIFF OMITTED] T8230.031
    
    [GRAPHIC] [TIFF OMITTED] T8230.032
    
    [GRAPHIC] [TIFF OMITTED] T8230.033
    
    [GRAPHIC] [TIFF OMITTED] T8230.034
    
    [GRAPHIC] [TIFF OMITTED] T8230.035
    
    [GRAPHIC] [TIFF OMITTED] T8230.036
    
    [GRAPHIC] [TIFF OMITTED] T8230.037
    
    [GRAPHIC] [TIFF OMITTED] T8230.038
    
    [GRAPHIC] [TIFF OMITTED] T8230.039
    
    [GRAPHIC] [TIFF OMITTED] T8230.040
    
    [GRAPHIC] [TIFF OMITTED] T8230.041
    
    Mr. Horn. Our last presenter before the Chair is Colonel 
Daniel M. Smith, a West Point cadet who spent a lot of his time 
in the Army on intelligence assignments. So we welcome you 
here, Colonel Smith, and would appreciate any advice you wish 
to give the committee.

  STATEMENT OF COLONEL DANIEL M. SMITH, USA (RET.), CHIEF OF 
            RESEARCH, CENTER FOR DEFENSE INFORMATION

    Colonel Smith. Thank you, Mr. Chairman. My remarks are 
going to come from the perspective of an information gatherer, 
a user of finished intelligence, and last but not least 
important, as an ordinary citizen.
    As a career military intelligence officer, I retain a bias 
in favor of the need for the U.S. Government to keep secret 
information that it deems might be helpful to an adversary or 
competitor if that information became known. The Government 
also has an interest in collecting information about other 
nations and foreign individuals with a view toward 
understanding, and if possible, influencing behavior of these 
nations and individuals. How and on what basis these decisions 
are made also is information that needs to be protected.
    On the other hand, as a career citizen of the United 
States, a status that preceded and postdated my military 
service, I have a bias in favor of maximum openness in 
government, including justification of actions taken or not 
taken on behalf of myself and other citizens. Although there 
are legitimate security reasons to withhold information from 
the general public, such as sources and methods used to acquire 
information on which decisions are based, the threshold for 
withholding information from the elected representatives of the 
people must be significantly higher than for the general 
public. Otherwise, the Congress can never know for sure whether 
it is carrying out its sworn duty to protect the public's 
general welfare against potential government intrusion into 
areas protected by the Constitution, and to properly allocate 
resources among the various legitimate requirements of the 
Nation in general and the intelligence agencies in particular.
    This subcommittee can, I believe, exercise oversight in 
intelligence activities from the standpoint of efficiency and 
fiscal management without increasing the possibility that 
sensitive information inadvertently will be revealed. 
Considering the size of the intelligence community itself, I am 
not overwhelmed by the possible numbers cited by Director 
Woolsey of those with an interest in oversight of intelligence 
activities.
    While there is a legitimate security requirement to limit 
the dissemination of sensitive information and material on a 
need-to-know basis, such need-to-know restrictions must be 
carefully evaluated to ensure they do not become an excuse to 
withhold information arbitrarily or to conceal failures or even 
misdeeds. Making information usable to different levels of 
Government, and even to the public, by blending in as many 
sources and methods as possible and screening out information 
that could only come from restricted sources is a job of 
professional intelligence analysts.
    Judging how well they are doing and whether priorities and 
expenditures are in line with the perceived threats is the job 
of Congress, and for that, Congress needs to have access and to 
hear from--in executive session if necessary--knowledgeable 
representatives of U.S. intelligence agencies.
    Thank you, Mr. Chairman.
    Mr. Horn. Thank you.
    [The prepared statement of Colonel Smith follows:]

    [GRAPHIC] [TIFF OMITTED] T8230.042
    
    [GRAPHIC] [TIFF OMITTED] T8230.043
    
    [GRAPHIC] [TIFF OMITTED] T8230.044
    
    [GRAPHIC] [TIFF OMITTED] T8230.045
    
    Mr. Horn. We'll now have the opening statement of my 
colleague, the ranking minority member of the Subcommittee on 
Government Efficiency, Financial Management and 
Intergovernmental Relations, Ms. Schakowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman. I appreciate you 
and Mr. Shays for convening today's hearing to highlight some 
of the examples of roadblocks that the CIA has put up to 
necessary and effective congressional oversight. It's really an 
honor for me to be here with this expert panel, and I wanted to 
say, particularly to Mr. Hamilton, somebody I've admired for a 
very long time, I appreciated all of your informed testimony.
    I am sure for each member here there's at least one story 
of frustration with the CIA and its unwillingness to cooperate. 
In the wake of the April 20th shoot-down of an American 
missionary plane over Peru and the killing of American citizens 
on board, members on both sides of the aisle were shocked when 
the CIA did not show up for a hearing of the Criminal Justice, 
Drug Policy and Human Resources Subcommittee to review 
circumstances that were leading to that tragedy.
    Having a particular concern with the fact that private 
military personnel, under contract with the CIA, were 
responsible for providing the information that led to the 
shoot-down, I called the CIA to ask some questions. After 
numerous calls that I made personally, as well as my staff, 
someone from the agency finally called to inform me that I 
would not be provided with any information and that the agency 
would neither confirm nor deny any involvement.
    As a Member of Congress with responsibility for voting on 
whether to allow such programs to exist and a member of the 
House's oversight committee, I was mystified and outraged. An 
American citizen and her infant daughter were killed, the 
United States played a prominent role, and now we have an 
agency telling Congress to mind its own business. This is our 
business, and I think we need to demand some answers.
    So I share your frustration, Mr. Chairman, and urge you to 
work with Chairman Burton to subpoena the information you have 
requested. I'm still waiting to hear from the CIA about the 
details of the shoot-down over Peru and believe the committee 
should also subpoena all audio- and videotapes, transcripts and 
other materials pertaining to the shoot-down of the missionary 
plane.
    The need for greater CIA compliance with inquiries and 
investigations is exemplified by their failure to even follow 
the most basic principles of law. Not only does the CIA refuse 
to recognize the rights of Congress, the agency often does not 
comply with laws that protect the public. In 1998, Amnesty 
International filed a Freedom of Information Act request with 
the CIA, seeking information about possible U.S. links to the 
Colombian military group, Los Pepes.
    The FOIA request was not answered until a little over a 
month ago--1998 till a month ago--after Amnesty International 
had found no other alternative but to file suit. Under the 
terms of the FOIA law, every U.S. agency has an obligation to 
respond within 10 days. It took the CIA 3 years, numerous press 
reports and a hugely successful book on the subject, and a 
lawsuit to say they could neither, ``confirm nor deny the 
existence or nonexistence of records.'' Incidentally, what 
Amnesty International is trying to uncover, information about 
drug trafficking terrorists that may have colluded with U.S. 
agencies to carry out an assassination, should be at the 
forefront of every Member's concern.
    In the fall of last year, I circulated a letter that was 
sent to President Clinton, asking for an investigation into 
these disturbing allegations. I realize it sounds more like a 
movie plot than real life, but unfortunately, this story line 
has come to characterize the way the agency is perceived by the 
public and the Congress.
    It is difficult to stand behind an agency that refuses to 
cooperate and seems to thrive on the practice of stonewalling, 
so I appreciate very much the suggestions that you've made of 
more comprehensive approaches and look forward to working with 
the chairman, both chairmen, to resolve some of the concerns 
that we have. Thank you.
    Mr. Horn. I thank the lady from Illinois.
    Now I am going to start in with some questions with Mr. 
Hamilton. You mentioned independent oversight, and it's my 
understanding that the House Permanent Select Committee on 
Intelligence staff includes a number of current and former CIA 
personnel. I understand how this can be important to certain 
aspects of the committee's duties, but could this close 
relationship hinder the committee's ability to conduct 
independent oversight?
    Mr. Hamilton. Mr. Chairman, I think there is always a great 
deal of suspicion toward the Central Intelligence Agency, 
certainly by the American public, but also Members of the House 
who are not members of the committee. And I think it's the 
responsibility of the House Permanent Select Committee to, No. 
1, do everything they can to conduct extremely rigorous, 
vigorous oversight of the Central Intelligence Agency, hold 
their feet to the fire, make them report on incidents like the 
Peru airplane incident, in very great detail.
    Now, the problem has always been to what extent does the 
select committee share information with other members, and, 
quite frankly, that's a part of oversight that has never been 
worked out very well; and it's an internal matter, it seems to 
me, that has to be worked on and resolved. I think the 
Intelligence Committee needs to be responsive to Members of 
Congress who are not members of the Intelligence Committee. You 
raised the question kind of an incestuous relationship, I 
guess, between staff and the Intelligence Community. To some 
extent that may exist, but I think there also are a good many 
staffers there that are quite independent of it.
    Let me emphasize again how important I think that 
independence is, because the President has the Foreign 
Intelligence Board. He appoints all those members. Very rarely 
in my experience will that Board step forward and say, Mr. 
President, the CIA, or some other aspects of our Intelligence 
Community, is out of bounds. The only independent oversight 
that this massive Intelligence Community gets is the Congress, 
and so it is important that oversight be done very rigorously 
and that it not fall prey to what the chairman is asking here, 
that it become co-opted by the Intelligence Community. You have 
to keep working at that. I mean it's something you just have to 
keep working at.
    Incidentally, that's one reason you have a limitation on 
the terms of the members of the House Select Committee, the 
argument being that if you have a permanent membership, that 
relationship becomes too cozy.
    Mr. Horn. Mr. Woolsey, during your tenure, did the CIA 
provide detailees to the congressional Intelligence Committees, 
and what was their role?
    Mr. Woolsey. I remember one to the Senate committee that 
was requested by the Senate, but I don't remember any others. 
I'd have to go back and look, Mr. Chairman, but I don't recall 
more than one at this point.
    Mr. Horn. Do you recall any other Directors before your 
position that did that?
    Mr. Woolsey. I don't know. I got the impression that it was 
done from time to time but wasn't all that common. I don't 
remember retired CIA members, officers who were on the 
committees when I was Director, except, again, one. There might 
have been more, but certainly most of the staffers were not 
either detailees or former CIA.
    Mr. Hamilton. Mr. Chairman, if I may just observe, an awful 
lot of the work of the Intelligence Committee is highly 
technical, and you do need on the staff of that committee 
people who have detailed knowledge of satellites and all kinds 
of technological miracles. You don't pick that up on the 
street. You get it from people that have worked in that area. 
And so the problem that you raise, I think, is a real one. The 
flip side of it is that the committee has to have staff that 
can go head to head with the Intelligence Community experts on 
all of their technology.
    Mr. Horn. Would that be your policy also, Mr. Woolsey?
    Mr. Woolsey. Yes, Mr. Chairman. It's up to the committee 
chairman who he picks. I've been out of the CIA for 6\1/2\ 
years. I've testified before both committees, and my experience 
has been that the occasional staff member who has background in 
the Intelligence Community, whether it's CIA or otherwise, his 
loyalty is owed to the chairman of the committee. Also they 
have always been vigorous in their questioning and the like.
    Mr. Horn. And you believe you had close relationships with 
the detailees? Did either your staff director or you sort of 
keep track of them?
    Mr. Woolsey. You mean when I was Director?
    Mr. Horn. Right.
    Mr. Woolsey. I don't remember who they were, and I 
certainly didn't keep close track of them. My relations were 
with the chairman, the members, and occasionally with staff. 
And I had with my two House committee chairmen, Congressman 
Glickman and Appropriations Subcommittee chairman, Congressman 
Murtha, excellent relations with them and the staff. That 
didn't mean that they didn't question me vigorously, but we got 
along fine.
    On the Senate side I got along fine with my appropriations 
chairman, Senator Inouye. The Senate Select Committee chairman, 
Senator DeConcini, and I were another matter. But what gave an 
overall cast to my relations with the four committees I dealt 
with was not the former status of any of the staff members, but 
it was dealings with the chairman and the ranking member.
    Mr. Horn. Did either one of you use the General Accounting 
Office to conduct reviews in terms of the work of the 
committee?
    Mr. Hamilton. Mr. Chairman, my recollection is we did not 
use the General Accounting Office for reasons that I think Mr. 
Hinton made pretty clear. They just don't feel they have the 
authority to examine it in great detail; so it was not a useful 
arm for us.
    Mr. Woolsey. And back in the days when I was general 
counsel of Senate Armed Services, Mr. Chairman, which was the 
early seventies, which was pre-Intelligence Committee days, 
there were only probably three or four staff members in the 
Senate who were cleared into the CIA and National 
Reconnaissance Office programs, and we did not use the GAO at 
all on those programs.
    Mr. Horn. Mr. Hinton, is there any record that GAO has 
contributed to a lot of these oversight groups in terms of CIA? 
Has it been solely fiscal or----
    Mr. Hinton. Well, back in the late fifties and early 
sixties, Mr. Chairman, we were looking at financial matters, 
and then we began to expand into some program areas; however, 
we were not able to get sufficient access to complete our 
mission, and as we had discussions with the CIA, and at that 
time it was the chairman of the House Armed Services Committee, 
we stopped doing work, and with the concurrence of the chairman 
of the House Armed Services Committee, who at that time had 
jurisdiction over the Intelligence area.
    Mr. Horn. When did CIA have an Inspector General as part of 
its----
    Mr. Hinton. My recollection is that it was in 1989 when the 
statute was passed, I believe, 1989.
    Mr. Woolsey. I think the CIA had an Inspector General 
before then but after 1989 it was subject to the statutory 
requirement of all these various independent reporting 
obligations to the Congress and the like.
    Mr. Horn. Did you find that was a useful office when you 
were Director?
    Mr. Woolsey. Sometimes.
    Mr. Horn. In terms of what they did, did they look at 
management processes or just fiscal matters?
    Mr. Woolsey. Both. I even had them review my own office's 
operation.
    Mr. Horn. And you felt they did a good job or----
    Mr. Woolsey. Sometimes.
    Mr. Horn. Sometimes. You're being very cautious here.
    Mr. Woolsey. Yeah. I have a ``on the one hand'' this other 
and that view of my Inspector General during those years, Mr. 
Chairman.
    Mr. Horn. And that's the Truman thing about economists.
    Mr. Woolsey. Yes.
    Mr. Horn. On the other hand, on the other hand, so forth.
    Do you think that the current organization has other 
experts that can look at management? And of course that is what 
our interest is. We are not interested in methods and 
Intelligence people. We are interested simply in ``is the place 
put together so it can achieve its mission?'' In the case of 
computers that have been classified, we had that whole problem 
in the Y2K thing, and we finally got some of the information.
    Mr. Woolsey. First of all, the Inspector General's Office 
does now do this sort of thing routinely, look at management 
practices for different parts of the Agency. And I think from 
what I've heard from Mr. Tenet, he's quite pleased with the 
operation of his Inspector General's Office now.
    Second, the President has, I believe, asked Mr. Tenet and 
also the White House, I think, operating through the 
President's Foreign intelligence Advisory Board which I believe 
will be headed by General Skowcroft, to do two management 
reviews of the Intelligence Community as a whole, including the 
CIA, and I think those are underway.
    And finally, the current No. 3 official at the CIA, who 
actually manages in a day-to-day sense the Agency, Buzzy 
Krongard, formerly the chief executive officer of Alex Brown 
and a very experienced executive, is someone that I think Mr. 
Tenet looks to for management advice about the operation of the 
Agency.
    So my judgment from the outside, and I'm not in this in any 
detail, would be that currently they are, from both the outside 
and the inside, reasonably well equipped to look at management 
issues.
    Mr. Hamilton. Mr. Chairman, my view is that the question 
you raise on efficiency, it's an area that the Intelligence 
Committees over a period of time have not paid very much 
attention to. The whole question of cost effectiveness, we 
spend billions and billions of dollars on Intelligence--we all 
know the figure roughly, I don't know whether it's public or 
classified so I won't use it--but billions of dollars, and 
there's very little attention given to cost effectiveness.
    The real key in Intelligence is are the right people 
getting the right information at the right time? That's the 
key. It doesn't matter how much intelligence you've got. If the 
commander on the ground is threatened with a car bomb, if he 
doesn't have the information he needs, your Intelligence is not 
worth a thing. And I think sometimes we get so captivated with 
the technology of the collection of intelligence that we take 
the position, the more the better.
    The real question is not necessarily the amount of data 
that you've got. You've got to analyze that data, and then 
you've got to get it to the right people at the right time for 
it to be effective. I don't think the Intelligence Committees, 
and I don't mean in any way to criticize the President's 
Intelligence Committees because I don't know that much, but 
over a period of years we simply have not spent enough time on 
efficiency and cost effectiveness, and to that point I very 
much concur with your view.
    Mr. Horn. Mr. Woolsey, any comments on that?
    Mr. Woolsey. Well, the Director of Central Intelligence 
really is charged with doing this on a day-to-day basis, and 
one major aspect of what I call the needs process which--
because I hate the word ``requirements.'' I think it has a lot 
of the wrong connotations for what one should request and 
appropriate funds for. Part of the needs process that I 
instituted had a lot to do with making and trying to 
institutionalize some of the kinds of judgments that Chairman 
Hamilton suggested.
    One of the types of things it tends to point out when you 
do an end-to-end look on a lot of intelligence product, from 
collection to its getting to the consumer, is that there are 
roadblocks of the sort he discussed. One very well-known one is 
translators. It doesn't do a great deal of good to accumulate a 
huge amount of data and material in Arabic if you're not 
willing to hire and train the number of Arabic speakers and 
readers necessary to make sure you're going through it on a 
reasonable and timely basis, and some of those types of things 
do jump out at one if one does a review of the needs during the 
budget process systematically, and that's the way I tried to do 
it. I don't know how it's been done since.
    Mr. Horn. To your knowledge, are CIA's employees able to 
report allegations of mismanagement or crimes of authorities 
outside of the CIA, or is there a process inside the CIA where 
a Director can depend on either a certain group or whatever to 
see that these things are taken care of?
    Mr. Woolsey. Inside the CIA they have access, of course, to 
the Inspector General. They would have access if he's running 
the place right, to the Director himself. And they certainly 
have access to the Oversight Committees of the House and 
Senate. I think that from the point of view of being able to 
report malfeasance or nonfeasance or just to complain about 
one's job, that system at least as of early 1995, from my point 
of view, worked reasonably well.
    Mr. Horn. Now, did you use GAO for help on any of this?
    Mr. Woolsey. No, Mr. Chairman, we did not. We operated with 
our own Inspector General. And with respect to the audit 
function, the Senate staff has a separate staff that does 
audit, and in the House it's my understanding they have several 
members of the staff that do it, although they don't call it a 
separate section of the committee.
    Mr. Horn. I see my co-chairman, Mr. Shays and others. I do 
want you to have some question time here. OK, go ahead, Ms. 
Schakowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman. I want to state 
first that I'm a rookie when it comes to these intelligence 
questions, and probably the questions that I will ask reflect 
those that perhaps ordinary citizens would be asking more than 
someone who has an expertise in this area of intelligence 
gathering and the rules of the game.
    I'm wondering, Mr. Chairman, if I could ask you a question 
first. I feel that our committee has been disrespected to some 
degree by the CIA in ignoring your request to appear and in 
ignoring your questions; and while I think we have certainly 
heard helpful testimony, I'm just wondering why you made a 
decision, or if you did, to not subpoena the CIA to come. Could 
you have and, if so, can we maybe in the future?
    Mr. Horn. Well, we leave that to Chairman Burton. He has 
that authority as chairman of the full committee.
    Ms. Schakowsky. I see. There's a threshold question on this 
issue of secrecy. Who and how are decisions made about what 
will be classified and what will not, what is important for the 
public to understand and what is not? It seems to me that 
questions about computer security certainly are public policy 
questions, and I don't know--Mr. Woolsey or others may 
disagree, that seems to me an obviously appropriate thing.
    When we asked questions about the incident in Peru, not 
sources and methods but other kinds of questions, these seem 
appropriate for our committee and for the American people to 
hear. Chairman Burton said, ``why is this information about 
whether or not the CIA hired private contractors classified?'' 
Why shouldn't everybody understand what their taxpayer dollars 
are going for?
    So, how are those decisions made, and then in what way can 
we appropriately question that threshold decision? Anyone can 
answer.
    Mr. Hamilton. Those decisions are made on the basis of 
officials of government that the Congress has given the power 
to classify information. You have given power to the Secretary 
of Defense or the Secretary of State to classify information. 
The Secretary of State and the Secretary of Defense do not sit 
there daily going through stacks of paper marking ``Secret'' on 
them. What do they do? They delegate that power. And they 
delegate it to literally hundreds and hundreds of people in 
this town, who have the authority derived from the secretaries 
to classify information. And we classify, in my judgment, way 
more information than we should, and it becomes almost 
impossible to declassify the information.
    But it is a power that is derivative, of course, from the 
President, but the secretaries have the power to classify 
information, and many of them have it, many of them delegate it 
to hundreds of people. There are scores and scores of people in 
a Department of Defense and the Department of State who 
classify information. And the whole system operates so that the 
incentive for the person classifying, the safe incentive, is to 
classify it ``Secret'' because you won't get into any trouble. 
The problem becomes if you don't classify something you should 
have, then you can get into trouble.
    So the incentives are to classify. As a result we have 
warehouses of secret information today, huge volumes of 
secrecy.
    Mr. Woolsey. Could I add a second to that?
    Ms. Schakowsky. Absolutely.
    Mr. Woolsey. The question of classification is a separate 
question from whether something is a CIA method or not. 
Presumably, if I am wrong, for example, and Mr. Eland is right, 
``method'' should be read as narrowly as he and Colonel Smith 
say and it only refers to collection, and that therefore the 
way the CIA protects its data is not a method and therefore 
this committee would have jurisdiction to hold hearings on it, 
I would certainly hope that this committee, if it held such 
hearings, it would hold executive session hearings, because 
even though this is a matter of important public policy, I 
trust we don't want to let Saddam Hussein or Russian hackers 
know how the CIA protects its data.
    So this committee I would assume on something of that 
sensitivity would, if it dealt with those issues, would deal 
with them in a classified way. There are many very important 
matters of public policy that are classified--whether to buy 
one type of satellite or another--that the Government and 
indeed the Congress deal with routinely.
    But I just wanted to say that I think there's a difference 
between whether something is classified or not, on the one 
hand, and I agree with former Congressman Hamilton that in a 
lot of cases things are overclassified. But that's a separate 
question from the one that is before us here about which 
committee has jurisdiction over understanding for the Congress 
how the CIA protects its data and its computers.
    Ms. Schakowsky. Yes, Mr. Eland.
    Mr. Eland. Yeah. I'd like to make a couple comments on 
this. I agree with the other two speakers that we have much too 
much classified information, and I think that has several ill 
effects. The first one is it undermines the whole system and 
then you get people saying, well, this is classified; but, you 
know, it's not really classified, so I can leak it to the press 
or whatever. So if we only hold the things that we need to hold 
secret, then I think everybody recognizes that is--you know, 
I'm saying Secret, Classified, you know, whatever level.
    The other thing is I think a lot of times the executive 
branch uses classification to limit access to various programs. 
The Reagan administration put a lot of defense programs in the 
special access category which requires special compartments to 
limit the congressional inquiry that could be done on them.
    Also, I think throughout this whole hearing there's been 
this assumption, and I think on the part of the CIA and maybe 
even some people in Congress, that the Congress is a bigger 
leak than the executive branch, and I don't think historically 
that is true. I think the biggest leaks have come out of the 
executive branch. Officials, for one political purpose or 
another, leak information. So I really don't think that the 
implication is if more congressional committees get involved in 
this that we're going to have secrets all over the place, as 
Mr. Woolsey was saying. It's just not true. I mean the----
    Ms. Schakowsky. That's kind of a second question: What's a 
secret and what isn't a secret in general? And then once 
something is legitimately a secret, who gets access to that 
information, what you're referring to now, and that there may 
be more in Congress who are entitled to that information.
    But you also brought up a question of the press. My short 
experience--I'm in my second term of Congress--has been that I 
have learned more information from reading the New York Times 
or the Washington Post than I have in any classified briefings, 
and certainly more information in regards to this Peruvian 
incident and the use of private contractors.
    Does anybody feel that there is a certain responsibility of 
the CIA or others to explain to Members of Congress information 
that has appeared in the press about activities which----
    Mr. Hamilton. I think under the present regime the way it 
would operate is an incident occurs, you want to know more 
about that, you're entitled to know more about it. The CIA has 
the information or maybe the DOD has the information. The way 
it would operate today is that they would give that information 
to the House Select Committee on Intelligence. That's their 
responsibility. They are fulfilling their obligation under the 
law when they report to the Intelligence Committees fully and 
currently on any inquiry.
    Now, the question of how the Intelligence Committee shares 
that information with nonmembers of the Intelligence Committee 
is an internal question that you have to resolve. As a member, 
you have the right to go to the Intelligence Committee and say 
I want to know what you know about that information. My 
recollection is--and this procedure may have been changed--is 
that the committee then votes on whether or not that 
information is made available to you. I don't recall, frankly, 
very often it coming to a vote. I can recall some instances of 
it.
    In other words, in most every instance, an arrangement is 
worked out so that the Member seeking the information can get 
it.
    Now, that's only part of the problem. The other part of the 
problem is once you get it, what can you do with it? You cannot 
go public with it if it is classified information, unless you 
do it on the floor of the House; and you can say anything you 
want to on the floor of the House and you're protected. But 
there are very strong practical constraints against you from 
doing that.
    So the question becomes how you get this flow of 
information from the Intelligence Committee to the other 
Members of the House, and it's been very difficult to work out 
over a period of time. In the end, if a Member is insistent, he 
or she can get that information but cannot necessarily use it 
publicly.
    Mr. Horn. Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. I thank the members 
of the panel for your testimony and enlightenment today.
    Mr. Hinton, reading your testimony and listening to you, I 
have to tell you I was going to say ``annoyed,'' but I will say 
``concerned,'' for lack of a better word, because of the CIA's 
actions. You raised two examples, both involving national 
intelligence estimates, and they are, I think to everybody's 
understanding, the Intelligence Community's best analysis of 
the likelihood of different kinds of threats; right?
    The first example, you said the CIA was cooperative when it 
came to discussing the national intelligence estimates 
involving chemical and biological threats. On the national--in 
the NIE for missile threats, however, you said that the CIA 
refused even to meet with you. Can you explain the difference 
in their attitude between those two?
    Mr. Hinton. I think a lot of that has to do with the issue 
and what the questions were that we were asking and how they 
saw the oversight process play out. On the latter, we were 
seeking information about process, and they saw that falling in 
within their determination that this was subject to the 
exclusive oversight of the select committees. Therefore, they 
did not share the information with us.
    Mr. Tierney. Did you only ask questions about process, or 
did you also----
    Mr. Hinton. In that case, that was objectives that we were 
trying to look at on that job.
    Mr. Tierney. Now, we're all aware that the President 
proposed huge new missile defense programs. Apparently the more 
we read, we find out he wants to talk about land, sea, air, and 
now even space systems. It can cost who knows how many hundreds 
of billions of dollars by the time he gets through this 
adventure. I think we risk alienating our allies, we risk some 
instability issues internationally, and this is a threat that 
many prominent critics claim does not exist at all or certainly 
is being greatly exaggerated.
    If you can't even get a meeting with the CIA to discuss 
this threat assessment on this issue, how is Congress going to 
be expected to analyze the President's proposal with respect to 
national issues of defense and to determine whether or not it 
properly addresses that threat?
    Mr. Hinton. I think that's going to have to be a shared 
responsibility among the Armed Services, the Appropriations, 
and the Intelligence Committees to pursue that.
    Mr. Tierney. It is your feeling that this committee, 
particularly the Subcommittee on National Security, Veterans 
Affairs and International Relations, the Government Reform 
Committee, doesn't have any ability under its responsibilities 
to look at the economy and efficiency of weapon systems?
    Mr. Hinton. I think that this committee will probably have 
to work closely with these other committees in seeking that 
information.
    Mr. Tierney. You raised an issue in your testimony also 
about the CIA actually not only failing or refusing to meet 
with you, but actually actively encouraging other agencies not 
to cooperate with you; is that right?
    Mr. Hinton. Yes.
    Mr. Tierney. What other agencies were you trying to receive 
comment from that the CIA interfered with?
    Mr. Hinton. I think in that case, it was DIA and NSA that 
we were told that the CIA had asked them not to cooperate with 
us, and State.
    Mr. Tierney. I find that a little bit appalling, very much 
appalling. Given the history of the missile defense debate and 
the way its gone in this country and the huge waste of money up 
until this point in time, I don't think that this is the way we 
ought to proceed.
    Mr. Chairman, I would strongly urge that the committee 
investigate this matter further; that we ask Mr. Hinton, if he 
can, to please provide us with the names of the CIA employees 
that refused to discuss the missile threat with his office. 
Could you do that, Mr. Hinton?
    Mr. Hinton. We have the information of who we asked it of.
    Mr. Horn. If I might just interject a minute, and I'll go 
back because, before Mr. Hamilton has to leave, I wanted to 
have my co-chair ask any questions he has.
    Mr. Tierney. I just want to wrap-up two questions and he 
can go all he wants on this. The second thing I want to ask is 
the names of the employees that tried to tell agencies not to 
cooperate with you. Do you have those, Mr. Hinton?
    Mr. Hinton. I don't know that we do, but we'll check, sir. 
I'll give you what we have. Generally when we have requests, we 
go through their Office of Congressional Affairs to get things 
lined up, and they are generally the messenger coming back. I 
don't know who they got their direction from, but I can give 
you whatever details our documents have.
    Mr. Tierney. If we could also have notes or interview 
summaries from your office regarding both of those issues, I 
would appreciate that. And, Mr. Chairman, I would just ask that 
those materials be made a part of the record.
    Mr. Horn. Without objection, it will be part of the record 
at this point.
    The gentleman from Connecticut and the co-chairman of this 
hearing.
    Mr. Shays. Thank you. It's nice to have all of you here.
    Mr. Woolsey, I do want to say, with no disrespect, you 
commented on the statements of other people in your opening 
statement, but they didn't have the--I don't think had your 
opening statement to be able to comment on it.
    Mr. Woolsey. I did not--I was not asked to submit a written 
opening statement, Mr. Shays, and I talked from notes that I 
put together this morning.
    Mr. Shays. I'm just trying to make the point to you. It's a 
small point.
    Mr. Woolsey. Well, Mr. Eland has twice mischaracterized 
what I said, and if we want to get into this, I'd be delighted 
to----
    Mr. Shays. I'm just making a point that in your opening 
statement you commented on the opening statements of others, 
and they didn't get the opportunity to comment on the opening 
statement of yours because they didn't see it, and you've 
explained why.
    Mr. Woolsey. Well, but Mr. Eland did comment on my opening 
statement in his remarks, and he mischaracterized twice what I 
said. So I'll be glad to get into this if it's important.
    Mr. Shays. No. After you made the opening statement, he 
didn't have your opening statement to look at. I'm just making 
a point----
    Mr. Woolsey. That's correct, because I didn't write one 
out. I wasn't asked to by----
    Mr. Shays. I have a sense that you want the last word. I 
have just made a point and you've made a point. I'm just making 
a point that the other gentlemen introduced an opening 
statement and they did not have the ability to see an opening 
statement of yours, and you did have an opportunity to comment 
on the opening statement of theirs, and that's the only point I 
made.
    I'd like to know, Mr. Woolsey, why I shouldn't be outraged 
or at least unhappy that the CIA wouldn't at least come here to 
explain why they believe on merit they shouldn't have to 
respond to this committee on other issues? I mean we have you 
here, and I'm grateful you're here, because otherwise their 
argument wouldn't be made except in a tangential way. So under 
what basis--if you were Director, under what basis would you 
not at least allow someone to explain the logic of why they 
don't think they should cooperate with these two committees?
    Mr. Woolsey. Well, I would think generally, Mr. Chairman, 
that it would be a good idea to show up and explain. I must 
say, however, I wrote yesterday or 2 days ago to the chairman 
because I hadn't seen a formal invitation. I'd only spoken with 
the staff on one occasion until 2 days ago; and then when I got 
it, the subject of the hearing, quote, The effect of the CIA's 
unwillingness to Cooperate with most congressional inquiries on 
Congress' ability to conduct oversight, is, if I may say so, 
from my perspective a somewhat argumentative statement of the 
issue. And were I George Tenet, I think I might come back and 
say we do not refuse to cooperate with most congressional 
inquiries. We, as the CIA, submit a lot of information to the 
Congress: briefings, daily; several briefings daily on our 
product, on the substance, on the output of the Intelligence 
Community.
    What is at issue here is oversight of what I believe is 
reasonably characterized as a CIA method. And Mr. Eland and 
others say no, it's not a method, it's an activity. But 
that's----
    Mr. Shays. If you weren't here--I am just making the point 
that if you weren't here, the position wouldn't even be 
presented to Members of the Congress as to why they shouldn't 
participate, and I just think----
    Mr. Hamilton. Mr. Shays----
    Mr. Shays. And I want to get right to you, Mr. Hamilton. I 
just think it is an affirmation of almost sticking their finger 
in our eye. I mean the least they could have done was to be 
here, and it seems dumb to me.
    Mr. Hamilton.
    Mr. Hamilton. I can appreciate your point, but you have to 
see the Director of Central Intelligence's problem. His problem 
is that the chairman of the House Permanent Select Committee on 
Intelligence has told him not to come. The chairman of this 
subcommittee has told him to come. Now he's got to make a 
choice.
    Mr. Shays. And the question I----
    Mr. Hamilton. His responsibility under the law is to keep 
the House and Senate Intelligence Committees currently and 
fully informed. I'm not----
    Mr. Shays. Let me just explain another part of that story, 
though. You're not certain, nor am I, that he didn't request 
that the chairman tell him not to come. You don't know, nor do 
I. But we do know this: We do know the CIA tells other 
intelligence committees not to cooperate, which leads to my 
next question. Why is it OK for other intelligence committees 
to cooperate but not the Agency?
    Mr. Hamilton. Well, I'm not here to defend the Central 
Intelligence Director. He can do that himself. But I think it's 
important for you to see that he's caught in a bind that the 
Congress has created. You've created this problem for him.
    Mr. Shays. No, that's not true.
    Mr. Hamilton. That is true.
    Mr. Shays. No. No. In general terms we might have that 
argument. Whether or not to explain why it's important for him 
not to only cooperate with the Intelligence Committee, it could 
be something that he could explain. And I make the point to 
you, because I know for a fact that the Agency has told other 
intelligence committees not to cooperate.
    Mr. Woolsey. Other intelligence agencies of the executive 
branch?
    Mr. Shays. Of the executive branch, and told them not to 
come and testify before our committees, and they have. They've 
cooperated. And it gets to my point, and I want to know why the 
CIA shouldn't cooperate and why others do cooperate. And I 
throw it open to you, to either of you. Tell me why.
    Mr. Hamilton. Well, I don't want to try to speak for the 
Director. I can certainly understand your frustration, and it 
just exemplifies the problem that exists between the Congress 
and the Intelligence Community.
    Mr. Shays. Let's get to my real question. My real question 
is simply to understand if we are talking about sources and 
methods, and we respect sources and methods with other 
intelligence agencies, there are 13 of them, and we don't have 
cooperation with 1. We have cooperation with 12. Why do the 
others accept that we can recognize that sources and methods--
it shouldn't be the issue, but on other things they should 
cooperate. Why is the CIA separate?
    Mr. Hamilton. Well, your original question was why did the 
Director choose not to appear.
    Mr. Shays. And----
    Mr. Hamilton. I can't answer for the Director, obviously, 
but I think I do see his problem.
    Mr. Shays. I understand that. You see his problem, but now 
I'm on to the next question.
    Why is it that of 13 intelligence agencies, 1 basically 
doesn't cooperate, the other 12 recognize that we respect the 
sources and methods as an issue that shouldn't be discussed, 
but there are other issues.
    And the reason why I am here today, I will tell you, if 
there is any person that the Intelligence Community should 
respect, it's Mr. Horn and his efforts to deal with 
efficiencies. It's one of the most boring darn subjects in the 
world, and he's made more headway than anyone else. And so I 
just want to understand that question.
    Mr. Hamilton, I know you have to leave, so I----
    Mr. Hamilton. I do. I apologize. Mr. Chairman, may I just 
make a concluding comment, if I may? I think the questions have 
brought out the difficulties of this relationship. I've been a 
little uneasy here this morning because the approach taken to 
this question, in my judgment, has become too legalistic. This 
is not a question that can be resolved by the interpretation of 
section 11(b)(4), section 11(a)(1), or (3)(a). If you want to 
get yourself into a position of not solving the problem, that's 
the way to do it in my view.
    This is a huge, hugely difficult matter. On the one hand, 
how do you have a strong Intelligence Community that, by 
definition, has to operate secretly and confidentially or they 
cannot do their job? On the other hand, in a representative 
democracy, how do you get accountability of that kind of an 
operation? That's the overall problem here. I think it's hugely 
difficult.
    The questions that Mr. Shays and others have operating 
simply bring out some of these difficulties, and I don't think 
there's a simple answer to that. My testimony was that the 
arrangement that we have today is far from perfect, but it 
works reasonably well. But it's quite obvious from your 
questions, it doesn't work, there are plenty of problems with 
it.
    Thank you for looking into this. Thank you for letting me 
come for a few minutes to be with you.
    Mr. Shays. Thank you, Mr. Hamilton.
    Mr. Hamilton. I appreciate what you're doing.
    Mr. Shays. I would love to ask Mr. Hinton a question. Thank 
you very much.
    Mr. Horn. I would just like to make a comment on the way 
I've been thinking. Why, with such a friendly group as this, 
the Director hasn't taken his wooden chair here that says 
``Director of CIA'' at the table. And I think maybe we need a 
better ergonomic chair to give the Director, and I'm weighing 
those two facts there. So, since I was one of the few that 
voted for ergonomics around this----
    Mr. Shays. Mr. Hamilton, I have tremendous respect for you, 
and I appreciate you being here. I do want to ask Mr. Hinton 
the question. You work with other intelligence agencies, do you 
get cooperation from other intelligence agencies?
    Mr. Hinton. Yes, sir. And it's varied over the years. We 
did significant work up through the 1980's and the early 
1990's. In 1994, the door started closing on us, and it was a 
memo that the Director of the CIA signed in July 1994 which in 
effect shut us out of most all of the intelligence work, 
related work, that we had been doing through the years, and 
also for some of the key clients up on the Hill, and also that 
work that we were doing without discretionary resources.
    Now, this wasn't directly looking at the CIA. I mentioned 
that in 1962 we stopped the work that we were actively doing at 
the CIA, but we were working in the other aspects of the 
Intelligence Community, looking at the national foreign 
intelligence program, tactical intelligence, some of the 
systems that were being procured. Our work in that area has 
essentially dried up.
    Mr. Shays. Let me ask you this. We found that the 
intelligence agencies have been cooperative with our committee, 
National Security, Veterans Affairs and International 
Relations. Are you saying that none of the agencies now are 
cooperating with GAO?
    Mr. Hinton. No, I'm not saying that, sir. Where I am on 
that, it depends on what we are asking to do. You know, if we 
go out and seek out information around intelligence product 
like threat assessments, we find that we enjoy very good 
access.
    Mr. Shays. Right.
    Mr. Hinton. However, when we get into looking at particular 
programs to do the typical evaluations that we do elsewhere in 
the government, we are being challenged considerably now, given 
the guidance that came about in 1994 under that directive.
    Mr. Shays. Mr. Eland or Colonel Smith, do you care to make 
any comments on these questions?
    Mr. Eland. Well, I used to work for GAO in the late 1980's, 
and I was monitoring on the frontlines, intelligence agencies, 
and my knowledge is dated--excuse me--pre-1984, but I found 
that the CIA was the only agency that we didn't actually get to 
go to. We had a site out at NSA. They gave us access. We looked 
at some even more sensitive intelligence-collecting entities of 
the U.S. Government which gave us much more access than the 
CIA.
    The CIA has always been a problem, and I think we need to 
separate this discussion from the Intelligence Community and 
the intelligence information from the CIA. The CIA is the 
problem here, in my view.
    Mr. Shays. I thank you, Mr. Chairman.
    Mr. Horn. Let me just say again. Perhaps you weren't here 
when I put this memorandum in the record. It's a memorandum for 
Director of Central Intelligence, dated July 7, 1994, via 
Deputy Director of Central Intelligence, the Executive 
Director, the Executive Director for Intelligence Community 
Affairs, from Stanley M. Moskowitz, Director of Congressional 
Affairs.
    And here's the blow. Subject: Director of Central 
Intelligence Affirmation of Policy for Dealing With the General 
Accounting Office. And it's a clear plan on, you know, you guys 
are just wasting your time and you're wasting our time and so 
forth. I regard that as arrogant. And what you noted there, the 
word was ``pipe down'' and ``sat on'' and everything else. They 
just didn't want to see what you were looking at.
    And all we care about, in fact, is computer security which 
is a major problem in the free world. I've talked to four Prime 
Ministers about it, and they know right now that they've got a 
problem in their economy where people are going and lousing up 
their computers, which means people could be out of work and 
everything else. So----
    Mr. Hinton. Mr. Chairman----
    Mr. Horn [continuing]. I want to put this, again without 
objection, in the record.
    Mr. Hinton. Mr. Chairman, one thing I'd add to that, 
without sustained congressional support for us to do work today 
and to include that on behalf of the select committees, we are 
essentially not doing any of the work that we used to do.
    Mr. Horn. Do you want to comment, Ms. Schakowsky?
    Ms. Schakowsky. I just wanted to comment on the fact that I 
think the problem is not entirely unique to the CIA. 
Congressman Tierney led an effort to pry loose a report from 
the Pentagon regarding the critical report by Phillip Coyle on 
the missile defense program, and it was promised in this very 
room that it would be turned over, and it wasn't. And finally 
after a lot of work it finally happened.
    But let me just ask one question of Mr. Woolsey, if you 
would indulge me, Mr. Chairman. If you broadly define a method, 
and looking back on the laws that govern the release of this 
kind of information, the dissemination of it, what would you 
define as appropriate? Is there any reason why the CIA Director 
would come here and talk to us about anything?
    Mr. Woolsey. Absolutely, Congresswoman. Certainly a 
product. The two areas at issue here are product and 
activities. The product of the Intelligence Community is not a 
method. Sources and methods are used in putting together an 
intelligence product such as a national intelligence estimate 
or any other estimate. And as long as sources and methods are 
effectively dealt with at the appropriate level of 
classification, intelligence products are provided to the 
Congress all the time, several times a day, a lot of committees 
of the Congress.
    I testified before the Science Committee, I testified 
before Senate Governmental Affairs, I testified before 
International Relations, Senate Foreign Relations, sometimes in 
classified settings, sometimes in unclassified. And I'm sure 
that intelligence briefings products are provided to individual 
members of this committee and as far as I know, if the--Mr. 
Gershwin's briefing, for example, on the cyberthreat that he 
gave to the Joint Economic Committee--I can't speak for him--
I'm sure that would be available, too.
    So products are not at issue. What is at issue is 
activities; is essentially, if I read the rule right, and I 
think I am reading it correctly with respect to the exclusive 
authority of the House Permanent Select Committee over methods, 
the question is when is an activity not a method? Are there 
some activities of the Intelligence Community that are not 
exclusively methods under the jurisdiction of the House 
Permanent Select Committee?
    To me, a method is something that has a certain regularity 
and procedure to it, and I think there's room here for this 
committee and the House Permanent Select Committee to have a 
dialog and work out some areas in which some things might be 
able to be provided here. I'm not saying that would not be the 
case. But certainly intelligence products, whether about 
ballistic missile threats or anything else, are available to 
all Members of the Congress, and briefings occur at committees 
in both bodies all the time from the CIA.
    Mr. Horn. I just have one last question, Mr. Woolsey. 
During your recent appearance on C-Span you stated the number 
of the employees of the CIA is classified. Why is this 
information so important to keep secret?
    Mr. Woolsey. Well, the overall total for the Intelligence 
Community was declassified for a couple of years, back several 
years ago, and now it's become classified again. The 
subordinate parts of that budget can relatively easily, not 
completely, but relatively easily, be calculated from manpower 
count. And so people generally have avoided declassifying not 
only the subordinate parts of the intelligence budget, but also 
the head counts of the agencies, because you can crosswalk 
relatively easily from one to the other.
    I might say this is not a very well kept secret, Mr. 
Chairman, and it's not something that I think any government 
official ought to fall on his sword over. But the overall 
intelligence budget was declassified and the reason I was 
concerned about that when I was Director was I was afraid we 
would end up having smaller and smaller chunks of the overall 
intelligence budget made public and CIA head count would be one 
further step along that path.
    Mr. Horn. Well, let me thank you, all of you, for the 
testimony you've given, and we appreciate it. And I want to 
thank the staff on both the majority and the minority: J. 
Russell George, staff director/chief counsel, behind me; and 
Henry Wray, senior counsel; and then Bonnie Heald is director 
of communications down there; and then the professional staff 
member for this particular hearing is Darin Chidsey, who is to 
my left; and Scott Fagan, assistant to the committee.
    And then we have a wealth of interns: Fred Ephraim; 
Davidson Hulfish; Fariha Khaliq; Christopher Armato; Samantha 
Archey. And from the National Security, Veterans Affairs and 
International Relations Subcommittee, Nicholas Palarino, senior 
policy analyst; and Jason Chung, clerk; and Lawrence Halloran, 
staff director. Minority staff, David McMillan, professional 
staff; and Jean Gosa, clerk.
    Our court reporters today are Melinda Walker and Lori 
Chetakian. And with that, we're adjourned. Thank you.
    [Whereupon, at 11:59 a.m., the joint subcommittee was 
adjourned.]


</pre></body></html>
